No.

In the
Supreme Court
of the United States
Brian E. Harriss,
Petitioner,
v.
Commissioner of Internal Revenue,
Respondent.
On Petition for Writ of Certiorari to the United States
Court of Appeals for the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI

Brian E. Harriss
6023 Harriss Hammond Rd
Harlem, GA 30814
(706) 513-3938
Petitioner, pro se

RECEIVED
JAN 2 8 2020
RK

SUPREME COURT U.S.

QUESTIONS PRESENTED
This Court has held that non-apportioned direct
taxes are Constitutionally prohibited and remain so
after the adoption of Amendment XVI to the U.S.
Constitution ("Amendment"), and that it is erroneous
to assume that the Amendment gave Congress the
"power to levy an income tax which, although direct,
should not be subject to the regulation of
apportionment applicable to all other direct taxes."
Brushaber v. Union Pacific R. Co., 240 U.S. 1, 11
(1916). This Court reaffirmed this holding in its
decisions in Stanton v. Baltic Mining Co., 240 U.S.
103 (1916), Taft v. Bowers, 278 U.S. 470, 481 (1929),
and So. Carolina v. Baker, 485 U.S. 505 (1988).
This Court further observed that, in its earlier
decision in Pollock v. Farmer's Loan & Trust, 157
U.S. 429 (1895),
[we] recognized the fact that taxation on income
was in its nature an excise entitled to be
enforced as such unless and until it was
concluded that to enforce it would amount to
accomplishing the result which the requirement
as to apportionment of direct taxation was
adopted to prevent, in which case the duty
would arise to disregard form and consider
substance alone and hence subject the tax to the
regulation as to apportionment which otherwise
as an excise would not apply to it.
Brushaber, supra, 240 U.S. at 17.
The questions presented are:
1. Did the Ninth Circuit commit reversible and
plain Constitutional error by recharacterizing,
without evidence, Petitioner's right to refute

11

QUESTIONS PRESENTED — Continued
Commissioner's presumptive, and not conclusive,
evidence of its correctness, that all of Petitioner's
earnings are excisable gains?
Did the Ninth Circuit Court of Appeals,
without evidence and in conflict with Constitutional
restrictions on the implementation of Congressional
taxing power, err by affirming deficiencies on the
premise that all earnings, and not just excisable
gains, may be taxed directly without apportionment?
Alternatively, under this Court's decisions, the
Amendment notwithstanding, is the income tax, as it
is currently administered throughout the country,
effectively a non-apportioned tax on the revenue of
the people that is prohibited, or subject to
apportionment by the U.S. Constitution, Article 1,
Sections 2 and 9?

111

RELATED CASES
Harriss v. Commissioner, consolidated Nos.
12528-14 and 25358-14, United States Tax Court.
Decision entered May 2, 2017.
Harriss v. Commissioner, No. 17-72233, United
States Court of Appeals for the Ninth Circuit.
Memorandum Opinion filed August 27, 2019.

iv
TABLE OF CONTENTS
P. ge(s)
QUESTIONS PRESENTED
RELATED CASES

iii

TABLE OF CONTENTS

iv

TABLE OF AUTHORITIES

ix

PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL, STATUTORY, AND
REGULATORY PROVISIONS INVOLVED

1

STATEMENT OF THE CASE

2

Background proceedings

3

The basis for jurisdiction in the trial and
appellate courts

5

REASONS WHY THIS PETITION SHOULD
BE GRANTED

5

I. The decision of the Ninth Circuit Court of
Appeals enforces the federal income tax law
in a way that conflicts with this Court's
decisions in Brushaber, supra, and Stanton,
supra.

7

A. The Ninth Circuit erred in ruling on the
premise, already discredited by this
Court in Brushaber, supra, and Stanton,

V

TABLE OF CONTENTS -- Continued
supra, that the Amendment authorized
a non-apportioned direct tax.

10

Brushaber set aside the notion of a
non-apportioned direct tax on
incomes as an "erroneous
assumption."

10

Capitations that are not apportioned
are prohibited by the Constitution.

12

Petitioner raised a dispute in his tax
returns grounded on the assumption
that this Court's decision in Brushaber
correctly identified the income tax as a
Constitutional excise on distinguished
activities.

19

Ruling on the mistaken premise that the
Amendment authorized such a tax, the
Ninth Circuit wrongly upheld a
capitation on Mr. Harriss's revenue

23

II. The Ninth Circuit Court of Appeals'
misapplication of the law to its erroneous
findings of fact revealed an inherent and
fundamental question of the federal tax law
and its administration that must be resolved
by this Court.

24

CONCLUSION

27

APPENDIX

A-1

ORDERS

A-1

vi
TABLE OF CONTENTS -- Continued

Harriss v. Commissioner, consolidated Nos. 1252814 and 25358-14, United States Tax Court,
Memorandum Findings of Fact and Opinion
entered January 5, 2017
MEMORANDUM FINDINGS OF FACT AND
OPINION

A-1
A-1

Harriss v. Commissioner of Internal Revenue,
Tax Court No. 12528-14, Decision entered
May 2, 2017

A-13

Harriss v. Commissioner of Internal Revenue,
Tax Court No. 25358-14, Decision entered
May 2, 2017
CONSTITUTIONAL PROVISIONS

A-14
A-17

U.S. Constitution, Article 1, Section 2,
Clause 3

A-17

U.S. Constitution, Article 1, Section 8

A-17

U.S. Constitution, Article 1, Section 9

A-17

U.S. Constitution, Amendment I

A-17

U.S. Constitution, Amendment V

A-17

U.S. Constitution, Amendment XVI

A-17

STATUTES

A-18

Revenue Act of 1862 (37th Congress, Sess. II
A-18
Ch. 119. 1862, pp. 472-473)
Internal Revenue Code 1986, 26 U.S.C. §61.
A-19
Gross income defined.

vii
TABLE OF CONTENTS -- Continued
Statutes from which §61(a) of the I.R.C. of 1986
A-20
is derivedRevenue Act of 1921 (67th Congress, Sess. Ch.
A-20
136, p. 238), Sec. 213.
Classification Act of 1923, Sixty-Seventh
Congress, Sess. IV, p. 1488 (1923), Chap. 265,
A-20
Sec. 2.
Revenue Act of 1938, Sec. 22(a).

A-21

Internal Revenue Code of 1939, Sec. 22(a)

A-22

Internal Revenue Code of 1986, 26 U.S.C.
§3121. Definitions

A-23

Internal Revenue Code of 1986, 26 U.S.C.
§3401. Definitions

A-25

Statutes from which §3401(a) of the I.R.C. of
A-25
1986 is derivedThe Current Tax Payment Act of 1943, sec. 2(a),
Sec. 1621
A-26
Internal Revenue Code of 1986, 26 U.S.C.
§6051. Receipts for employees.

A-26

26 U.S.C. §6201. Assessment authority. (Enacted
in Taxpayer Bill of Rights 2, Pub.L. 104-168,
110 Stat. 1452, 1463, enacted July 30, 1996) A-27
26 U.S.C. §7491. Burden of proof (The Internal
Revenue Service Restructuring and Reform Act
of 1998, Pub. L. 105-206, 112 Stat. 685, enacted
July 22, 1998, Sec. 3001)
A-28

viii
TABLE OF CONTENTS -- Continued
Statutes from which §7701(a)(4), (9) and (10)
A-29
of the I.R.C. of 1986 are derived:
Revenue Act of 1938 (52 Stat. 447, 583), Sec. 901
A-29
Internal Revenue Code of 1986, §7701.
Definitions.

A-30

Statutes from which 26 U.S.C. §7701(a)(26) is
A-30
derived:
Internal Revenue Code of 1939, Sec. 48

A-30

26 U.S.C. §7701(c) (enacted in Revenue Act of
1924, 68th Cong. Sess I, Ch. 234, 1924, Sec. 2(b))
A-30
REGULATIONS
26 C.F.R. §601.106(0(1)

A-30
A-30

ix
TABLE OF AUTHORITIES
Page(s)
Cases
Brushaber v. Union Pacific R. Co., 240 U.S 1
passim
(1916)
Burnet v. Brooks, 288 U.S. 378 (1933)

11

Chase Nat. Bank v. United States, 278 U.S. 327
(1929)

12

Commissioner v. Glenshaw Glass, 348 U.S. 426
(1955)

17

Commissioner v. Obear-Nester Glass Co., 217
F.2d 56 (7th Cir. 1954)

24

Doyle v. Mitchell Bros. Co., 247 U.S. 179 (1918)

17

Eisner v. Macomber, 252 U.S. 189 (1920)

17

Hylton v. United States, 3 Da11. 171 (1796)

13, 19

In re Becraft, 885 F.2d 547 (9th Cir. 1988)

25, 26

Knowlton v. Moore, 178 U.S. 41 (1900)

12

Lovell v. United States, 755 F. 2d 517 (7th Cir.
25, 26
1984)
Northern California Small Business Assistants
Inc. v. Commissioner of Internal Revenue,
16, 18
153 T.C. No. 4 (2019)
Parker v. Commissioner, 724 F.2d 469 (5th Cir.
25, 26
1984)
Peck v. Lowe, 247 U.S. 165 (1918)

18

TABLE OF AUTHORITIES -- Continued
Penn Mut. Indem. Co. v. Commissioner, 32 T.C.
653 (1959)

17

Pollock v. Farmer's Loan & Trust, 157 U.S. 429
passim
(1895)
So. Carolina v. Baker, 485 U.S. 505 (1988)

i, 18

Springer v. United States, 102 U.S. 586
6, 15, 20
(1881)
Stanton v. Baltic Mining Co., 240 U.S. 103
i, 6, 11, 19
(1916)
Steward Machine Co. v. Collector of Internal
Revenue, 301 U.S. 548 (1937)
Taft v. Bowers, 278 U.S. 470 (1929)

11
i, 18

United States v. Collins, 920 F.2d 619 (10th Cir.
1990)

25

United States v. Francisco, 614 F.2d 617 (8th
Cir. 1980)

25

Waters v. Chumley, No. E2006-02225-COA-RVCV (Tenn. App. 2007)

.12

Constitutional Provisions
United States Constitution, Amendment I
United States Constitution, Amendment V

1, 19
1

United States Constitution, Amendment XVI.. passim
United States Constitution, Article 1, Section 2 ... ii, 1
United States Constitution, Article 1, Section 8 ....1, 5

xi
TABLE OF AUTHORITIES -- Continued
United States Constitution, Article 1,
ii, 1, 5, 23
Section 9
Statutes
26 U.S.C. § 61

3

26 U.S.C. § 408

22

26 U.S.C. § 6201(d)

19, 21

26 U.S.C. § 6214
26 U.S.C. § 6662(B)(ii)(II)
26 U.S.C. § 7482
26 U.S.C. § 7491(a)(1)
28 U.S.C. § 1254
Classification Act of 1923, Sec. 2
Revenue Act of 1894

5
19
1
19
1
22
7, 20

Rules
Tax Court Rules of Practice and Procedure,
4,5
Rule 91
Tax Court Rules of Practice and Procedure,
Rule 122

3

Regulations
26 C.F.R. §601.106(0(1)

3

)di
TABLE OF AUTHORITIES -- Continued
Other Authorities
"Income Equality in the United States 1913 to
1958," Thomas Picketty, EHES, Paris, and
Emmanual Saez, U.C. Berkeley and NBER

9

45 Cong. Rec. 2245-2246 (1910)

18

71 AM JUR.2d State and Local Taxation §24

12

Adam Smith, An Inquiry into the Nature and
Causes of the Wealth of Nations, Book V,
Ch.II, Art. IV (1776)

14

Albert Gallatin, The Writings of Albert
Gallatin, ed. Henry Adams (Philadelphia:
J.B. Lippincott, 1879). 3 vols. 1/12/2020
14, 15
Black's Law Dictionary, 6th Edition

12

Gallatin, Albert, Sketch of the Finances of the
United States (1796)

13

House Congressional Record, March 27, 1943, p.
2580, statement of Rep. Carlson of Kansas
incorporating as his own statement a report
of former Treasury Department legislative
draftsman F. Morse Hubbard
16, 20
Report No. 80-19A, "Some Constitutional
Questions Regarding the Federal Income
Tax Laws" by Howard M. Zaritsky,
Legislative Attorney of the American Law
Division of the Library of Congress (1979)

20

PETITION FOR A WRIT OF CERTIORARI
Petitioner Brian E. Harriss, pro se, petitions this
Court for a Writ of Certiorari to review and reverse
the final judgment of the United States Court of
Appeals for the Ninth Circuit affirming the decision
of the United States Tax Court finding deficiencies in
income tax and penalties for tax years 2010 and 2011
because Mr. Harriss did not report all of his earnings
as taxable income.
OPINIONS BELOW
Petitioner has reproduced in his Appendix the
Ninth Circuit's unpublished Memorandum Opinion
issued on August 27, 2019 (A-15), the Tax Court's
January 5, 2017 Memorandum Findings of Fact and
Opinion (A-1) and its final Decisions issued on May 2,
2017 (A-13-A-14).
JURISDICTION
The opinion of the Court of Appeals was entered
on August 27, 2019. Petitioner sought from this Court
and obtained an extension to file this Petition until
January 24, 2020. This Court has jurisdiction under
26 U.S.C. §7482(a)(1) and 28 U.S.C. §1254(1).1
CONSTITUTIONAL, STATUTORY, AND
REGULATORY PROVISIONS INVOLVED
U.S. Constitution, Article 1, Sections 2, 8 and 9;
Amendment I; Amendment V; Amendment XVI
(A-17).
1

All section references are to the 1986 Internal Revenue Code
unless otherwise indicated.

2
STATEMENT OF THE CASE
In a three-paragraph, cursory ruling, on the
stipulated fact that Mr. Harriss earned money in the
relevant years, the Ninth Circuit Court of Appeals
affirmed a proposed income tax deficiency against
Mr. Harriss (as well as penalties) on the ground that
he had received "compensation for services" and
improperly omitted those amounts from gross income
and that, therefore, he owed federal income tax on all
of those earnings.
But Mr. Harriss had not stipulated—and, in fact,
had denied—that he had been a service provider who
received "compensation for services" or that he had
engaged in activities of any kind relevant to the
income tax. The evidence did not support a finding
that he had engaged in taxable activity or had
received wages or trade or business income or any
other measure of activity subject to a
Constitutionally-administered excise on incomes. The
courts below simply reframed his Stipulations using
terms defined by Congress, and declared that his
receipts, thus re-named, were taxable.
The action of the courts below was not merely
incorrect on the facts and the law. The deficiency
determination under review was upheld on one of two
grounds that demand this Court's attention and
resolution. Either the Ninth Circuit simultaneously
acknowledged the nature of the income tax as an
excise (why else recharacterize Petitioners'
stipulations to conform to statutory and historical
definitions relevant to such a tax?) while it deprived
him of his property in derogation of the Rules of
Court and his Constitutional rights, or, it doesn't
matter how his earnings were characterized (and all

3
argument concerning the tax as an excise was
frivolous), because the Amendment authorized a new
species of tax — i.e., a non-apportioned, direct tax on
all that comes in, and therefore Mr. Harriss's
personal revenue, and not just the gain derived
therefrom, was taxable directly. See §61 and the
statutes on which that section is derived. A-18-A-22.
Reply Brief, pp. 18-19.
The Constitutional conundrum that this case
presents is of imperative public importance precisely
because it is not unique, but, rather, represents the
new norm. Calling the tax a Constitutional excise
while taxing the public directly, without
apportionment, is putting form over substance and
subjecting the citizenry to exaction, which violates
their rights to due process of law. 26 C.F.R.
§601.106(f)(1). A-17; A-30. This is especially true in
cases such as this one where the courts rewrote the
facts to aid the government's cause and to give the
decision a lawful veneer. Moreover, the current
administration of the tax multiplies confusion and
threatens to destroy both the productivity of the
people and the Constitutional framework on which
our nation rests. See Brushaber, supra, 240 U.S. at
12.
A.

Background proceedings.

Mr. Harriss petitioned the U.S. Tax Court for a
redetermination of an income tax deficiency proposed
by Respondent for tax years 2010 and 2011. The
cases eventually were consolidated. Despite the fact
that Mr. Harriss and Respondent had arrived at, and
jointly signed, a motion under Tax Court Rule 122 to
submit the case as fully stipulated, Respondent's
counsel mendaciously suggested to the trial court

4
that Mr. Harriss had objections to the record, might
not show up in court, and was otherwise problematic.
Based on these false representations, the Tax Court
ordered the parties to appear at, and conduct, an
unnecessary trial. At the trial, the Tax Court
admitted patently inadmissible piles of documents
into the record, and, in violation of Tax Court Rule
91, allowed Respondent's counsel to change or qualify
Respondent's stipulations. Opening Brief, pp. 6-9.
Cross motions for sanctions were denied. Post-trial
simultaneous briefing was completed on March 25,
2016.
On January 5, 2017, the Tax Court issued its
Memorandum Findings of Fact and Opinion
upholding the proposed deficiencies. A-1. Many of
the facts that the trial court found, but that had not
been stipulated, had no evidentiary support. Even
worse, the trial court erroneously characterized many
of the facts found as stipulated, when actually they
never had been. The Tax Court subsequently entered
two separate decisions on May 2, 2017, one for each of
the two cases that had been consolidated. Reply Brief,
p. 1.
Mr. Harriss appealed the Tax Court decision to
the Ninth Circuit Court of Appeals. The Ninth
Circuit, claiming to have reviewed the legal
conclusions de novo and the factual findings for clear
error (A-15), apparently did not do so by resort to the
record. It merely found, "the record showed that
Harriss had earned taxable income, and the legal
basis for Harriss's argument to the contrary was
frivolous." Since the record did not show that Mr.
Harriss engaged in an excisable activity, nor did the
record contain the concessions or stipulations that
the Tax Court attributed to him (e.g., compare Trial

5
Tr. p. 24, Stipulation 12, and A-3), and since
Respondent's inadmissible evidence was not offered
to prove any of Respondent's late-raised assertions
made in violation of Tax Court Rule 91 (Op. Br. 3536; A-6-A-7), the decision of the Court of Appeals
essentially was that Mr. Harriss was paid money and
therefore owed federal income tax. But the Court of
Appeals was careful to phrase it that Mr. Harriss
earned "compensation for labor or services, paid in
the form of wages or salary," A-16, things that Mr.
Harriss had denied and for which there was no
evidence. On this ground, the Court of Appeals also
upheld the late-filing and accuracy-related penalties.
A-16.
Petitioner seeks a writ of certiorari.
B.

The basis for jurisdiction in the trial and
appellate courts.

Under §6214(a), the U.S. Tax Court had subject
matter jurisdiction to review and to redetermine the
Commissioner's determination of a tax deficiency set
forth in a statutory notice. On August 2, 2017,
Petitioner timely filed his Notice of Appeal to the
Court of Appeals of the May 2, 2017 final decision of
the Tax Court.
REASONS WHY THIS PETITION
SHOULD BE GRANTED
Either the Ninth Circuit's decision to uphold a
tax deficiency against Mr. Harriss was in violation of
the limits on income tax administration established
in Article 1, sections 2, 8 and 9 of the U.S.

6
Constitution and therefore void,2 or, in the
alternative, the income tax itself, as administered
today, is a direct tax that either must be apportioned
or struck down as unconstitutional.
The outcome depends entirely on whether this
Court will uphold its prior decisions in Brushaber,
supra, and Stanton, supra, among others, or whether
it will declare that the Fifth, Seventh, Eighth, Tenth,
and the Ninth Circuits have correctly held that the
Amendment created a "new species of tax" called a
non-apportioned direct tax on incomes. If this Court
finds the latter, then the Amendment itself must be
struck down because it has caused one portion of the
Constitution to be in irreconcilable conflict with
another, with all the evils attendant thereto. See
Brushaber, supra, 240 U.S. at 11-12.
This Court should grant certiorari to resolve this
crucial area of income tax law, because declining to
do so will be seen as tacit approval to continue its
unlawful administration.

2

If a direct tax is not apportioned, "not having been laid
according to the requirements of the Constitution, it must be
admitted that the laws imposing it, and the proceedings taken
under them by the assessor and collector for its imposition and
collection, were all void." Springer v. United States, 102 U.S.
586, 595 (1881) (sustaining the Civil War income tax laws,
holding that the tax based on income was not a direct tax but
was fundamentally an excise or duty and as such did not require
apportionment among the States).

7
I.

The decision of the Ninth Circuit Court of
Appeals enforces the federal income tax law in
a way that conflicts with this Court's decisions
in Brushaber, supra, and Stanton, supra.

In 1895, in the Pollock case, this Court held
sections 27-37 of the Revenue Act of 1894 invalid. The
Court reasoned that to apply the tax to gains derived
in connection with the ownership of property (either
the stock on the basis of which dividends were paid or
real estate from which rents were derived) amounted
to a tax on the property itself, and thus failed to pass
Constitutional muster for lack of apportionment in its
administration.
By 1913, Amendment XVI was adopted to
overrule the Pollock Court's holding that an income
tax on rents and dividends must be apportioned
simply because those excisable gains derived from
property. Three years later, in Brushaber, supra,
Chief Justice Edward White penned the landmark
opinion for a unanimous Court, addressing and
definitively settling the meaning and effect of the
newly-adopted Amendment. Justice White
understood that the Amendment simply eliminated
Pollock's shielding from the well-established income
excise tax of privilege-based gains derived from
dividends and rents.
In Brushaber, this Court reaffirmed its previous
rulings that the income tax is an excise tax. Further,
it clarified that the adoption of the Amendment did
not change the character of the tax as an excise and
that the Amendment did not, and could not,
authorize a non-apportioned direct tax. Brushaber,
240 U.S. at 11.

8
We are of opinion, however, that the confusion
is not inherent, but rather arises from the
conclusion that the 16th Amendment provides
for a hitherto unknown power of taxation; that
is, a power to levy an income tax which,
although direct, should not be subject to the
regulation of apportionment applicable to all
other direct taxes. And the far-reaching effect
of this erroneous assumption will be made clear
by generalizing the many contentions advanced
in argument to support it...
Id., 240 U.S. 10-11 (emphasis added). In fact, this
Court held that the proposition that the Amendment
could have established a non-apportioned direct tax is
erroneous and repugnant to the Constitution, because
such a tax would rely on, and create, an untenable
Constitutional internal conflict.
But it clearly results that the proposition and
the contentions under it, if acceded to, would
cause one provision of the Constitution to
destroy another; that is, they would result in
bringing the provisions of the Amendment
exempting a direct tax from apportionment into
irreconcilable conflict with the general
requirement that all direct taxes be
apportioned.
Id., 240 U.S. 11-12. In fact, this Court explained, if
the Amendment authorized a direct tax that is not
subject to the rule of apportionment, "instead of
simplifying the situation and making clear the
limitations on the taxing power, which obviously the
Amendment must have been intended to accomplish,
[this result] would create radical and destructive

9
changes in our constitutional system and multiply
confusion." Id., 240 U.S. 12.
The Brushaber Court was prescient. Today, as it
increasingly has been since the mid-1940s,3 and as
clearly shown in the case below, the income tax law is
being administered as if the Amendment had
authorized a non-apportioned, direct tax on the
revenue of the people. As this Court presaged, this
unlawful administration has created "radical and
destructive changes in our constitutional system" and
has "multipl[ied] confusion."4
It is the opportunity, and obligation, of this Court
to examine "the far-reaching effect of this erroneous
assumption" (id., 240 U.S. 11) about the nature of the
tax, not only as it pertains to the individual
Petitioner, Brian Harriss, but as it pertains to all
taxpayers.

3

From 1913 to 1939, on average, only 9.4% of earning
Americans filed tax documents and returns, and even during
World War I and the 1920s, the highest annual percentage of
income tax filings during that period was only a little over 17%.
But in the early 40s and in the midst of World War II, in part
due to state public appeal campaigns aimed at raising war-time
revenues, the percentage rose to more than 80%. But, had the
1913 Amendment created a universal, non-apportioned tax on
all revenue, no such campaigns would have been necessary, and
the "compliance" would have neared today's rates before the
date of the Brushaber decision. See chart at "Income Equality in
the United States 1913 to 1958," Thomas Picketty, EHES, Paris,
and Emmanual Saez, U.C. Berkeley and NBER, p. 65.
https://eml.berkeley.edu/-saez/piketty-saez0UP04US.pdf
Justice White then proceeded to conduct "a demonstration of
the error of the fundamental proposition as to the significance of
the Amendment." Brushaber, 240 U.S. 12.

10
A.

The Ninth Circuit erred in ruling on the
premise, already discredited by this
Court in Brushaber, supra, and Stanton,
supra, that the Amendment authorized
a non-apportioned direct tax.
1.

Brushaber set aside the notion of a
non-apportioned direct tax on
incomes as an "erroneous
assumption."

Brushaber essentially held that the purpose and
effect of the Amendment is merely the overruling of a
mistaken reasoning of the majority of this Court in
the 1895 Pollock decision that, when applied to
dividends and rent, taxation must be viewed in light
of the personal-property sources from which those
particular gains are derived. Based on that faulty
reasoning, the 1895 Court had held that even the
then-33-year-old income tax, when applied to such
gains, must be treated as a property tax requiring
apportionment.
After this Court's decision in Brushaber, this
Court reaffirmed the holding that, after adoption of
the Amendment—which, by overruling the Pollock
treatment of gains derived from rents and dividends,
only underscored the excise nature of the tax—the
income tax remains an excise and that nonapportioned direct taxes remain prohibited.
[B]y the [Brushaber] ruling, it was settled that
the provisions of the Sixteenth Amendment
conferred no new power of taxation, but simply
prohibited the previous complete and plenary
power of income taxation possessed by Congress
from the beginning from being taken out of the

11
category of indirect taxation to which it
inherently belonged, and being placed in the
category of direct taxation subject to
apportionment by a consideration of the sources
from which the income was derived—that is, by
testing the tax not by what it was, a tax on
income, but by a mistaken theory deduced from
the origin or source of the income taxed.
Stanton, supra, 240 U.S. at 113.
Twenty years after Brushaber, in Steward
Machine Co. v. Collector of Internal Revenue, 301 U.S.
548 (1937), this Court rejected the argument that a
federal tax on "income" (in this case under the
provisions of the Social Security act) can be construed
as a direct non-apportioned tax authorized by the
Amendment:
If [a] tax is a direct one, it shall be apportioned
according to the census or enumeration. If it is a
duty, impost, or excise, it shall be uniform
throughout the United States. Together, these
classes include every form of tax appropriate to
sovereignty. CI Burnet v. Brooks, 288 U.S. 378,
288 U.S. 403, 288 U.S. 405; Brushaber v. Union
Pacific R. Co., 240 U.S. 1, 240 U.S. 12 Whether
the [income] tax is to be classified as an "excise"
is in truth not of critical importance [for
purposes of this analysis]. If not that, it is an
"impost," or a "duty." A capitation or other
"direct" tax it certainly is not.
Steward, supra, 301 U.S. at 581. (Emphasis added.)

12
2. Capitations that are not
apportioned are prohibited by the
Constitution.
A capitation is a direct tax, like other "taxes
directly on property because of its ownership."
Brushaber, 240 U.S. 15. As this Court had explained
previously, "Direct taxes bear immediately upon
persons, upon the possession and enjoyments of
rights;...." Knowlton v. Moore, 178 U.S. 41, 47 (1900).
In contrast, an excise is a privilege tax. See,
generally, Waters v. Chumley, No. E2006-02225-COARV-CV (Tenn. App. 2007), which pointed out that,
with respect to state taxation on the conduct of
business, for example, "[clase law recognizes no
distinction between a privilege tax and an excise tax,"
citing 71 AM JUR.2d State and Local Taxation §24,
("The term 'excise tax' is synonymous with 'privilege
tax,....'")." The principle applies equally to any excise,
and it is its nature as an excise that allows the
income tax to pass Constitutional muster. See,
generally, Chase Nat. Bank v. United States, 278 U.S.
327, 334 and 336-337 (1929) (in which this Court
treated an "excise or privilege tax" synonymously and
held that it is the privilege which Constitutionally
may be taxed without apportionment). "Privilege" is
defined as:
A particular benefit or advantage enjoyed by a
person, company, or class beyond the common
advantages of other citizens....A particular
right, advantage, exemption, power, franchise,
or immunity held by a person or class, not
generally possessed by others.
Black's Law Dictionary, 6th Edition.

13
Excises are avoidable and fall on privileges,
consumption, and use, whereas direct taxes are
unavoidable and fall on property, ownership, and
persons, their revenue, and their possession and
enjoyment of rights. In line with this reasoning, the
tax act levying a tax without apportionment on
carriages "for the conveyance of persons," passed on
by this Court in Hylton v. United States, 3 Da11. 171
in 1796, "was not levied directly on property because
of its ownership but rather on its use and was
therefore an excise, duty or impost." Brushaber, 240
U.S. 14. In Pollock, this Court had concluded that
"the classification of direct was adopted for the
purpose of rendering it impossible to burden by
taxation accumulations of property, real or personal,
except subject to the regulation of apportionment,..."
Brushaber, 240 U.S. 16.
A tax on unprivileged activities or occupations is
a capitation, a type of direct tax. On the Framers'
understanding and use of the term, this Court, in
Pollock, supra, drew upon the analysis of Albert
Gallatin.5
Albert Gallatin, in his Sketch of the Finances of
the United States, published in November, 1796,
said: The most generally received opinion,
however, is that, by direct taxes in the
constitution, those are meant which are raised on
the capital or revenue of the people; by indirect,
such as are raised on their expense....' He then
5

Albert Gallatin was a United States senator, a member of the
House of Representatives, an ambassador to the United
Kingdom and France, and the longest-serving Secretary of the
Treasury in U.S. history.
https://www.federalreservehistory.org/people/albert_gallatin

14
quotes from [Adam] Smith's Wealth of Nations,
and continues: 'The remarkable coincidence of the
clause of the Constitution with this passage in
using the word "capitation" as a generic
expression, including the different species of
direct taxes, an acceptation of the word peculiar,
it is believed, to Dr. Smith, leaves little doubt
that the framers of the one had the other in view
at the time, and that they, as well as he, by direct
taxes, meant those paid directly from, and foiling
immediately on, the revenue;...'
Pollock, supra, 157 U.S. at 569-570 (emphasis added).
Adam Smith described capitations in Wealth of
Nations, as "taxes which, it is intended, should fall
indifferently upon every different species of
revenue....Capitation taxes, so far as they are levied
upon the lower ranks of people, are direct taxes upon
the wages of labour, and are attended with all the
inconveniences of such taxes." Adam Smith, An
Inquiry into the Nature and Causes of the Wealth of
Nations, Book V, Ch.II, Art. IV (1776) (Smith was
referring to wages in its common sense and not the
custom-defined legal term found in the Internal
Revenue Code.)
Also found in Gallatin's treatise is the following
description of a direct tax on personal property which
requires apportionment in its application. Today, this
passage could be describing our modern-day income
tax as it is currently applied:
Personal property, perpetually shifting, requires
a yearly valuation. . . . His capital employed in
commerce, the debts which are due to him (from
which must be deducted those he owes), his
money, and even his stock in goods, must either

15
be assessed according to his own declaration, or
be estimated in an arbitrary manner. And when
the tax is laid upon the revenue and not upon the
capital of persons, when the profits of their
industry are also to be calculated, it may truly be
asserted that... the most odious of [vexatious
excises] would be less oppressive, unequal, and
unjust than a direct tax levied in that manner.
Albert Gallatin, The Writings of Albert Gallatin, ed.
Henry Adams (Philadelphia: J.B. Lippincott, 1879). 3
vols. 1/12/2020, p . 167.6
Gallatin observed that, in France, for example,
such capitations "laid with a regard to the conditions
of persons, and assessed according to a conjectural
proportion of fortunes, industry, and professions,
were equally oppressive to the contributors and
injurious to the nation." Id. Gallatin concluded that
"lands and houses are the proper objects of direct
taxation, that almost every other species of property
must be reached indirectly by taxes on consumption."
Id. at 168; Springer, supra, 102 U.S. at 602.
So far as the objections raised in the Pollock case
are concerned, the principle applied to
corporations under the act of 1909 with the
approval of the Supreme Court might have been
extended to individuals engaged in business. In
that way investment income of most individuals
as well as of corporations could doubtless have
been brought under the terms of the act. And the
field of income could have been completely
covered by applying the principle that the
ownership and management of investment

6

https://olllibertyfund.org/titles/1950#Gallatin_1358-03_421

16
property is an activity or privilege with respect to
which Congress may impose an excise.
However that may be, Congress chose to remove
all doubt by an amendment to the Constitution.
House Congressional Record, March 27, 1943, p.
2580, statement of Rep. Carlson of Kansas
incorporating as his own statement a report of former
Treasury Department legislative draftsman F. Morse
Hubbard ("Congressional Record") (emphasis added).
Clearly, the Framers of the Constitution not only
did not intend that the earnings from jobs of common
right would be taxed without apportionment, but they
took strong measures to protect the citizenry from the
burden of such a tax on their ordinary revenue. And
at the time of the adoption of the Amendment, it was
not this undistinguished revenue that Congress
termed "income."
Judge Gustafson of the Tax Court recently
observed in his concurring/dissenting opinion in
Northern California Small Business Assistants Inc. v.
Commissioner of Internal Revenue, 153 T.C. No. 4
(2019) ("NCSBA") that this Court has emphasized the
fact that "income" in a tax context is something other
than gross receipts, and must be considered in its
Constitutional sense.
A proper regard for ... [the] genesis [of the
Sixteenth Amendment], as well as its very
clear language, requires also that this
amendment shall not be extended by loose
construction....
[I]t becomes essential to distinguish between
what is and is not "income," as the term is
there used, and to apply the distinction, as

17
cases arise, according to truth and substance,
without regard to form....
"Income may be defined as the gain derived
from capital, from labor, or from both
combined"....
Eisner v. Macomber, 252 U.S. 189, 206-207 (1920)
(emphasis added) (quoting Doyle v. Mitchell Bros.
Co., 247 U.S. 179, 185 (1918))...."[T]he essential
matter... [is] a gain, a profit." Eisner v. Macomber,
252 U.S. at 207; see also Doyle, 247 U.S. at 184189 ("Income'...convey[s]...the idea of gain or
increase arising from corporate activities")....
The issue in Eisner v. Macomber was the
taxability of a stock dividend (raising questions
admittedly different from those in this case and
in Alpenglow), and the Supreme Court did indeed
observe in [Commissioner v.] Glenshaw Glass,
348 U.S. [426] at 431 [(1955)], that the definition
in Eisner v. Macomber "was not meant to provide
a touchstone to all future gross income
questions."
However, even after Glenshaw Glass, one can still
say: "Implicit in this construction [in Eisner v.
Macomber of "income" as it is used in the
Sixteenth Amendment] is the concept that gain is
an indispensable ingredient of 'income,' and it is
this concept which provides the standard by
which we must determine whether the tax...is a
tax on 'income' within the meaning of the 16th
amendment." Penn Mut. Indem. Co. v.
Commissioner, 32 T.C. 653, 680 (1959) (Train, J.,
dissenting; emphasis in original), affd, 277 F.2d
16 (3d Cir. 1960). Again, Eisner v. Macomber, 252
U.S. at 207, held that "the essential matter...[is]

18
a gain, a profit", and this "essential" point is
hardly dictum.
NCSBA, supra, 153 T.C. No. 4, *27-32.
Congress taxes something other than a taxpayer's
"income" when it taxes gross receipts without
accounting for whether those receipts constituted a
gain from excisable activities.
Since income taxation was inherently indirect
even before the adoption of the Amendment, the
Amendment did not extend Congress's "taxing power
to new or excepted subjects." Peck v. Lowe, 247 U.S.
165, 172 (1918); compare Taft, supra, 278 U.S. at 481
(the Amendment "confers no power upon Congress to
define and tax as income without apportionment
something which theretofore could not have been
properly regarded as income"); So. Carolina v. Baker,
supra, 485 U.S. at 522, fn. 13 ("The legislative history
merely shows that the words 'from whatever source
derived' of the Sixteenth Amendment were not
affirmatively intended to authorize Congress to tax
state bond interest or to have any other effect on
which incomes were subject to federal taxation, and
that the sole purpose of the Sixteenth Amendment
was to remove the apportionment requirement for
whichever incomes were otherwise taxable," citing 45
Cong. Rec. 2245-2246 (1910)) (emphasis added.)

19
B.

Petitioner raised a dispute in his tax
returns grounded on the assumption
that this Court's decision in Brushaber
correctly identified the income tax as a
Constitutional excise on distinguished
activities.

In the case below, Petitioner had availed himself
of his Constitutional right to raise a dispute
concerning items of income reported by third parties
on information returns, and to disclose that dispute
to the IRS on his tax returns. U.S. Constitution,
Amendment I. Petitioner's dispute of the
characterization of his non-distinguished payments
as wages or other excise-taxable income was wellgrounded in several statutes in which Congress
contemplated such a dispute, e.g., 26 U.S.C.
§§ 6201(d), 6662(B)(ii)(II), 7491(a)(1), and in the
decisions of this Court upholding the income tax as a
Constitutional excise. Hylton, supra; Pollock, supra;
Brushaber, supra; Stanton, supra, etc. Further,
legislative draftsmen over the years consistently have
explained that, even after the advent of the
Amendment, the income tax is still an excise, and
non-apportioned direct taxes are still prohibited by
the Constitution.
The income tax ... is an excise tax with respect
to certain activities and privileges which is
measured by reference to the income which they
produce. The income is not the subject of the
tax; it is the basis for determining the amount of
tax....[T]he amendment made it possible to
bring investment income within the scope of the
general income-tax law, but did not change the

20
character of the tax. It is still fundamentally an
excise or duty....
Congressional Record, p. 2580;
The Supreme Court, in a decision written by
Chief Justice White, first noted that the
Sixteenth Amendment did not authorize any
new type of tax, nor did it repeal or revoke the
tax clauses of Article I of the Constitution,
quoted above. Direct taxes were,
notwithstanding the advent of the Sixteenth
Amendment, still subject to the rule of
apportionment...
Report No. 80-19A, "Some Constitutional Questions
Regarding the Federal Income Tax Laws" by Howard
M. Zaritsky, Legislative Attorney of the American
Law Division of the Library of Congress (1979).
This Court has made a "deliberate determination
as to the fundamental nature of the tax"
(Congressional Record, 2579) as an excise, Springer,
supra, 102 U.S. 602, and this character was "firmly
fixed in the minds of those charged with its
administration." Congressional Record, 2579. Even
while striking portions of the Revenue Act of 1894 as
unconstitutional in the Pollock case, this Court "still
recognized that the income tax was in essence an
excise tax." Congressional Record, 2580.
But because the Court of Appeals upheld a
deficiency merely on the fact that the Petitioner had
stipulated to receiving some kind of payment for his
work, the merits of that dispute became irrelevant, as
were the statutes, legal definitions and Supreme
Court jurisprudence on which Mr. Harriss had relied.
A-18-A-30. Indeed, like the Tax Court, the Court of
Appeals ignored the evidence, changed the stipulated

21
facts, and avoided any mention of the governing law
in determining that Mr. Harriss had more taxable
receipts than he had reported and thus, by court
decree, owed a deficiency of tax.
The courts appear to have adopted the position
urged by the government, i.e., that what is being
enforced is a non-apportioned, direct tax on
everything that comes in, in which case this Court
must declare that the tax is subject to apportionment,
or that it is being unconstitutionally administered.
Indeed, the courts below treated Petitioner's
dispute—grounded on the notion that the tax is an
excise on distinguished activities and gains derived
therefrom—as misplaced and even frivolous. The Tax
Court declined to hold Respondent to his burden of
proof under §6201(d) because the "position" wrongly
attributed to Mr. Harriss—that "his wages are not
taxable"—does not constitute even a "reasonable
dispute" of an item of income. A-5.
The courts below created the pretense that
Petitioner's argument was something patently
frivolous and easily debunked by attributing to
Petitioner an argument that he was careful not to
make: "that his wages are not taxable." But Mr.
Harriss did not argue that his wages were not taxable
— he disputed that what he was paid even constituted
wages, as that term is relevantly, and distinctly,
defined by Congress. Petitioner also never argued, as
the trial court said he did, that the term wages "does
not encompass the compensation he received from his
employers." A-7, fn. 4.
Likewise, the Tax Court held that the notices of
deficiency were presumed correct because of a third
party characterization that his retirement account

22
was a federal IRA (defined at §408) (see Trial Tr. 24
and A-3) and because Mr. Harriss stipulated that he
had received non-distinguished pay for his work (the
Tax Court then reframed this stipulation as a
concession that he received "compensation for
services." A-7. But see, e.g., Classification Act of 1923,
Sec. 2, A-20-21). Op. Br. 22-23, 25, 32.
This is the heart of the matter — the Tax Court
treated wages as both generic (i.e., earnings
generally) to conclude that all his receipts were wages
and his dispute was inherently frivolous, and as
specific to the tax (i.e., excisable gain as defined, the
only wages reportable on an information return) to
conclude that his receipts were taxable. The "findings
of fact" and conclusions of law therefore were
schizophrenic and led to an absurdly unjust result,
which was adopted in whole by the Court of Appeals.
This treatment suggests that the courts are,
indeed, enforcing the income tax law in conflict with
the Constitution and, in the case below, with Mr.
Harriss's rights. The income tax is, and always has
been, an excise on the gains derived from
distinguished activities, but the Ninth Circuit
committed reversible, and Constitutional, error by
recharacterizing, without evidence, all of Mr.
Harriss's earnings as excisable gains, or by treating
the matter of the character of his earnings as
irrelevant to the non-apportioned income tax.

23
C.

Ruling on the mistaken premise that the
Amendment authorized such a tax, the
Ninth Circuit wrongly upheld a
capitation on Mr. Harriss's revenue.

The proposed deficiency of tax against Mr.
Harriss was a capitation enforced as if such a tax
were lawful. This explains why the Ninth Circuit
found no error in the Tax Court's Findings of Fact
and Conclusions of Law. A-15-A-16. After all, if the
income tax is not an excise or duty, but is, instead, a
capitation, then Mr. Harriss's record is sufficient to
sustain at least the receipt of revenue on which such
a direct tax may be imposed. But such a capitation
may not be imposed if it is not apportioned. U.S.
Const., Article 1, Sec. 2, Clause 3 and Sec. 9. A-17.
If the income tax deficiency upheld by the Court
of Appeals is, rather, tax on distinguished activities
measured by the gains those activities produce, and
therefore Constitutionally subject to an excise, then
the Ninth Circuit erred in failing to hold the
government to its burdens of proof, and to hold the
Tax Court to its duty to apply the Rules of Court.
Worse, it erred grievously in allowing the evidence,
and lack thereof, to be construed as establishing
taxable activity on which such an excise may lawfully
be imposed without apportionment.
Alternatively, the Ninth Circuit disposed of this
case summarily on the mistaken and destructive
notion that there is a third species of tax to which Mr.
Harriss is subject — a non-apportioned, direct tax on
everything Mr. Harriss received for his work of
common right.

24
II. The Ninth Circuit Court of Appeals'
misapplication of the law to its erroneous
findings of fact revealed an inherent and
fundamental question of the federal tax law and
its administration that must be resolved by this
Court.
The misapprehension of the Brushaber decision,
and the unconstitutional imposition and collection of
income taxes, is systemic and must be corrected.
The confusion, and erosion of the Constitutional
framework, has only grown over the years. The
Seventh Circuit observed in 1954: "Before the
Sixteenth Amendment Congress could not levy a
direct tax without apportionment among the states."
Commissioner v. Obear-Nester Glass Co., 217 F.2d 56,
58 (7th Cir. 1954), citing Pollock. But this statement
implies a view that after the adoption of the
Amendment, such a tax could be levied. Directly after
this statement, however, the Seventh Circuit seemed
to recognize "income" as a special or distinguished
subclass of earnings, even though it may only have
been an expression of confusion as to the effect of the
Amendment:
The Amendment allows a tax on "income"
without apportionment, but an unapportioned
direct tax on anything that is not income would
still, under the rule of the Pollock case, be
unconstitutional.
Id., 217 F.2d 58.
Thus, the Seventh Circuit's view is either that
there is a new species of tax—a direct, nonapportioned tax on all earnings (the broader sense of
"income" as all that comes in) authorized by the

25
Amendment—or that there is a unique subset of
earnings ("income" in the distinguished sense) that
now, as before the Amendment, may be taxed as an
excise (and thus, without apportionment). It is the
latter view that this Court has taken in Brushaber
and later decisions.
But more recently, some courts, including the
Seventh Circuit, while obviously misreading this
Court's ruling in Brushaber, have identified the
income tax, as it has come to be administered, as a
non-apportioned, direct tax without mention of the
distinguished nature of the "incomes" subject to that
tax. See, e.g., Parker v. Commissioner, 724 F.2d 469
(5th Cir. 1984) (stating this Court determined in
Brushaber "that the sixteenth amendment provided
the needed constitutional basis for the imposition of a
direct non-apportioned income tax."); Lovell v. United
States, 755 F. 2d 517, 519 (7th Cir. 1984) ("Plaintiffs
also contend that the Constitution prohibits
imposition of a direct tax without apportionment.
They are wrong; it does not. U.S. Const. amend. XVI;
Parker v. Commissioner, 724 F.2d 469, 471 (5th
Cir.1984)") (emphasis added); United States v.
Francisco, 614 F.2d 617 (8th Cir. 1980) ("the income
tax is a direct tax,....See Brushaber.... )(the purpose of
the Sixteenth Amendment was to take the income tax
"out of the class of excises, duties and imposts and
place it in the class of direct taxes")."); United States
v. Collins, 920 F.2d 619 (10th Cir. 1990) ("For
seventy-five years, the Supreme Court has recognized
that the sixteenth amendment authorizes a direct
nonapportioned tax..., see Brushaber....").
The Ninth Circuit explicitly articulated this view
in In re Becraft, 885 F.2d 547 (9th Cir. 1988). Even in

26
the context of attorney Becraft's purported argument
that the issue is tied to residency and that "resident
United States citizens are not subject to the federal
income tax laws,"7 which is mistaken, if not frivolous,
the Ninth Circuit wholly adopted, as its own, the
view that there is no longer only "two great
subdivisions embracing the complete and perfect
delegation of the power to tax and the two correlated
limitations as to such power" as held by this Court
(Brushaber, supra, 240 U.S. at 13; Pollock, supra, 157
U.S. at 557:
For over 75 years, the Supreme Court and the
lower federal courts have both implicitly and
explicitly recognized the Sixteenth Amendment's
authorization of a non-apportioned direct income
tax. . . . [citing Brushaber, Lovell and Parker.]
In Re Becraft, supra, 885 F.2d at 548.
On this view, the Ninth Circuit in the case below
held that everything paid to Mr. Harriss was rightly
termed "income" and was subject to a direct tax
without apportionment. Were these courts, and the
Ninth Circuit below, correct in upholding the
administration of the tax as a non-apportioned, direct
tax? Or, instead, did these courts, as well as the
courts below, enforce administration of the tax in
violation of the Constitution by relying upon an
incorrect interpretation (or a deliberate misconstruction) of this Court's earlier holdings as to the
nature of the income tax and the effect of the
Amendment? It is a critical question.
Petitioner says "purported" because it is possible (and common)
that the Ninth Circuit recharacterized Becraft's argument, but,
in any event, the citizenship point is wide of the mark and is not
what petitioner is arguing here.

27
This Court should exercise its supervisory
authority to curb the abuses in income tax
administration, and to clarify the law to ensure
uniform, national tax administration in harmony
with, and obedience to, the Constitution.
Either the income tax law is Constitutional as
written and the Ninth Circuit erred in affirming its
unlawful administration, or the income tax law, as
interpreted by the courts and as currently
administered, has fundamentally changed. Setting
aside form and examining substance, this Court now
must declare it to be unconstitutional as
administered, or declare that it is subject to
apportionment. Either way, the tax to which Mr.
Harriss has been subject for 2010 and 2011 must be
declared "direct in the constitutional sense, and [1
therefore void for want of apportionment"
(Brushaber, supra, 240 U.S. at 16), and the decision
below upholding a tax on his non-distinguished
earnings must be reversed.
CONCLUSION
The writ should issue.
Respectfully submitted on January 24, 2020,

Brian E. Harriss
6023 Harriss Hammond Rd
Harlem, GA 30814
(706) 513-3938
Petitioner, pro se

